2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

ss E-Mail Address:
Le ga | Brie fs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-1120
MELISSA BELGAU, ET AL.,
Petitioners,
Vv.

JAY INSLEE, IN HIS OFFICIAL CAPACITY AS
GOVERNOR OF THE STATE OF WASHINGTON, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE LANDMARK LEGAL FOUNDATION IN SUPPORT OF PETITIONERS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.i(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2099 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 17th day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska 1 / zv Chk
. RENEE J. GOSS 9. ‘°

My Comm. Exp. September 5, 2023
Affiant 40691

 

Notary Public
